                                  June 22, 2000


                                  CLAIR A. BRAZINGTON
                                  DISTRICT MANAGER, CUSTOMER SERVICE AND
                                   SALES SPOKANE DISTRICT

                                  SUBJECT:	 Responsiveness to Congressional Inquiries in
                                            the Spokane District
                                            (Report Number LR-LA-00-003)

                                  This letter advisory presents the results of our review of the
                                  Spokane District’s responsiveness to congressional
                                  inquiries from Representative George R. Nethercutt, Jr.
                                  (Project Number 00ER001LM000).

    Results in Brief	             We found that during 1998 and 1999,1 6 out of the 49
                                  congressional inquiries reviewed from Representative
                                  Nethercutt, were not processed within the timeframes
                                  established in stated district policy. District management
                                  attributed nonresponsiveness to congressional inquiries to
                                  turnover in a key position. District management recognized
                                  the importance of following established timeframes for
                                  responding to inquiries. Specifically, we found that relations
                                  with Representative Nethercutt’s office had improved as a
                                  result of Spokane District management initiatives to foster
                                  proactive and effective communication with the local
                                  congressional office. The Spokane District was generally
                                  responsive to inquiries from Representative Nethercutt’s
                                  office.

    Background 	                  The Office of the Inspector General (OIG) received
                                  correspondence from Representative George R. Nethercutt,
                                  Jr., expressing concern about the significant number of
                                  complaints received from constituents relating to the
                                  Spokane District, and alleging nonresponsiveness of

1
 We analyzed inquiries received in calendar years 1998 and 1999. In 1999, we reviewed inquiries received from
January through November.
Spokane District's Responsiveness                                                                    LR-LA-00-003
 to Congressional Inquiries


                                   district staff to congressional inquiries. In his
                                   correspondence to the OIG, Representative Nethercutt
                                   noted that the House Report for the Fiscal Year 1999
                                   Treasury-Postal Appropriation Act urged an audit and
                                   review of postal operations in the Spokane District,
                                   specifically focusing on customer service, labor-
                                   management relations and bidding irregularities. Based on
                                   discussions with Representative Nethercutt’s Spokane staff
                                   we agreed that we would limit our review to the District’s
                                   responsiveness to his inquiries.

                                   The management instruction, PO-250-93-2, Complaint
                                   Resolution and Proper Use of the Customer Service Card
                                   states that congressional inquiries are to be processed
                                   according to Administrative Support Manual Section 338.2
                                   The Spokane District’s Congressional Inquiries Response
                                   standard operating procedure gives the manager of
                                   Consumer Affairs oversight responsibility for all
                                   congressional inquiries. The policy sets a standard of five
                                   working days for designated managers and postmasters to
                                   respond to the manager of Consumer Affairs regarding the
                                   inquiry, allowing ten working days as a maximum time for
                                   response. The manager of Consumer Affairs monitors and
                                   evaluates inquiry responses for accuracy and
                                   completeness. The responses are then forwarded to the
                                   congressional representative’s office via mail, telephone,
                                   fax, or electronic mail.

    Objective, Scope, and 	 The objective of our review was to evaluate the
    Methodology	            responsiveness of the Spokane District to congressional
                            inquiries from Representative Nethercutt. We reviewed
                            congressional inquiries received by the Spokane District
                            from Representative Nethercutt during 1998 and 1999.3 We
                            interviewed Postal Service employees in the Spokane
                            District to obtain an understanding of the handling of
                            congressional inquiries.

                                   We reviewed management instruction, PO-250-93-2,
                                   Complaint Resolution and Proper Use of the Customer
                                   Service Card; Administrative Support Manual Section 338

2
  Section 338.33 of the Administrative Support Manual authorizes field managers to respond directly to governmental
inquiries.
3
  The manager of Consumer Affairs could not generate a listing of all cases received prior to and during 1998 due to
limitations with the Consumer Affairs Tracking System. However, he provided a listing of 19 cases for 1998 and 30
cases for 1999.




                                                         2
Spokane District's Responsiveness                                                  LR-LA-00-003
 to Congressional Inquiries


                              Legislative, Executive Relations (specifically sub-section
                              338.33 Field); the Western Area Consumer Affairs Focuses
                              for 2000; and the Spokane District’s Congressional Inquiries
                              Response standard operating procedure to gain further
                              understanding of the handling of congressional inquiries.

                              This review was conducted from November 1999 through
                              June 2000 in accordance with the President’s Council on
                              Integrity and Efficiency Quality Standards for Inspections.
                              We discussed our conclusions and observations with
                              appropriate management officials and included their
                              comments, where appropriate.

 Observations 	               The Spokane District was generally responsive to inquiries
                              from Representative Nethercutt’s office. Specifically, we
                              found that relations with Representative Nethercutt’s office
                              had improved as a result of Spokane District management
                              initiatives to foster proactive and effective communication
                              with the local congressional office.

                              The Spokane District manager implemented the following
                              initiatives to improve relations with the local congressional
                              office:

                              •	 Conduct regular meetings with congressional staff
                                 representatives to encourage communication.

                              •	 Document written processes to formally monitor the
                                 district’s timeliness and responsiveness to congressional
                                 inquires.

                              In interviews, Representative Nethercutt’s local staff
                              confirmed a significant improvement in relations with the
                              district and an increased responsiveness to staff’s inquiries.

                              In 1998 and 1999 the district received at least 49 inquiries
                              from Representative Nethercutt’s office. Four of the
                              nineteen inquiries in 1998 and two of the thirty inquiries in
                              1999 reviewed were not responded to within the timeframes
                              established in the district policy. The response time for the
                              four late responses in 1998 ranged from 16 to 57 days. The
                              response times for the two late responses in 1999 were 15
                              and 19 days.




                                               3
Spokane District's Responsiveness                                                LR-LA-00-003
 to Congressional Inquiries


                              District management attributed nonresponsiveness to
                              congressional inquiries to turnover in a key position from
                              1998 through May 1999. Specifically, the manager of
                              Consumer Affairs has oversight responsibility for
                              congressional inquiries. However, from January 1998 to
                              May 1999, five different individuals held that position.

                              In summary, our review determined that relations with and
                              responsiveness to Representative Nethercutt’s
                              congressional inquiries have improved. Our discussions
                              with Representative Nethercutt’s staff confirmed that
                              congressional relations within the Spokane District have
                              improved as a result of these initiatives.

                              Since this report does not contain suggestions, formal
                              comments are not required. However, if you have
                              comments on this report, please forward them to this office
                              no later than June 29, 2000. We appreciated the
                              cooperation and courtesies provided by your staff during the
                              review. If you have any questions, please contact
                                                          , Labor Management (Rosslyn),
                              or me at (703) 248-2300.



                              Billy J. Sauls
                              Assistant Inspector General
                               for Oversight and Business Evaluations

                              cc: 	 Deborah K. Willhite
                                    Craig G. Wade
                                    John R. Gunnels




                                               4
Spokane District's Responsiveness       LR-LA-00-003
 to Congressional Inquiries




 Major Contributors to
 This Report




                                    5
